CERTIFICATE OF WORD COUNT
Case No. 20-599
Case Name:
Hirsh Singh, pro se., v. Philip D. Murphy et al.,

Document Title:
PETITION FOR A WRIT OF CERTIORARI

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Reply of Petitioner Hirsh Singh, which was prepared using Century
Schoolbook 12-point typeface, contains 2650 words, excluding the parts of the
document that are exempted by Rule 33.1(d). This certificate was prepared in reliance
on the word-count function of the word-processing system (Microsoft Word) used to
prepare the document.
I declare under penalty of perjury that the foregoing is true and correct.
DATED this 30th day of January 2021.

/s/ Hirsh V. Singh

Hirsh Singh,
Filing as Pro Se
P.O. Box 407 Linwood, NJ 08221
9 Wexford Lane Linwood, NJ 08221
(609)335-5289
info@hirshsingh.com

